Supreme Court, U.S.
FILED

WAIVER

FEB 2 0 2020
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No.

City of Ferguson

19-1025
v.

Keilee Fant, et al.
(Respondent)

(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
Please enter my appearance as Counsel of Record for all respondents.
There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

I am a member of the Bar of the Supreme Court of the United States.
I am not, presently a member of the Bar of this Court: Should a response be requested, the response
will, be filed by a Bar member. - Signature

February 19, 2020

Date.

Marco Lopez
s Mr. 0 Ms. 0 Mrs. 0 Miss
Civil Rights Corps

(Type or print) Name
Firm

Address

1601 Connecticut Avenue NW, Suite 800

City & State
Phone

Washington DC

(202) 643-9148 ,•• •

Zip

20009

marco@civilrightscorps.org
i
mail

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S)-OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
CC: John M. Reeves

RECEIVED

,FEB 2 6 2020
OFFICE OF THE CLERK
SUPREME COURT U.S.

